Audit Report



Return
    to the USDOJ/OIG Home Page




Use of Equitable Sharing Revenues by the Villa Rica, Georgia Police Department

Report No. GR-40-04-008


August 2004
Office of the Inspector General


Executive Summary





At the request of the United States Attorney's Office for the Northern District of Georgia, the U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of the use of DOJ equitable sharing revenues by the Villa Rica, Georgia, Police Department (Police Department).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.1    During the period April 9, 1997, through May 29, 2003, the Police Department was awarded DOJ equitable sharing revenues totaling $2,888,728 and property valued at $52,875 to support law enforcement operations.  In addition, the Police Department received $285,991 as a result of bank interest ($6,377), insurance refunds ($45,943), the sale of property ($30,804), and transfers from other law enforcement agencies ($202,867) as related to the equitable sharing program.2   Overall, the Police Department obtained $3,227,594 in assets based on participation in the federal equitable sharing program as of May 29, 2003.
We reviewed the Police Department's compliance with six essential equitable sharing guidelines and found weaknesses in four areas.  As a result of the deficiencies identified below, we question $605,158 in equitable sharing funds received.3 

Federal Sharing Agreements and Annual Certification Reports:  The Police Department did not promptly submit an updated Federal Sharing Agreement for the 3-year period ending 2005 when administrators changed.  The Police Department also submitted Annual Certification Reports that were incomplete, inaccurate, and/or untimely.  In addition, the Police Department improperly received $331,456 because it did not properly enter into task force agreements with other law enforcement agencies when it provided training on drug interdiction and while working outside its jurisdiction.


Accounting for Equitable Sharing Receipts:  The Police Department did not maintain an adequate tracking system to record the requests for and receipts of equitable sharing funds.  As a result, $1,425 in equitable sharing receipts was not deposited into the federal equitable sharing program account.


Use of Equitably Shared Property:  The Police Department properly used the five tangible property items obtained through the equitable sharing program, but it did not record the items on its property inventory records.


Use of Equitable Sharing Funds:  The Police Department did not provide sufficient documentation to support sample expenditures totalling $214,813.  The Police Department used equitable sharing funds for unallowable expenditures when it purchased vehicles totaling $57,099, but transferred the vehicles to city officials for non-law enforcement purposes.  In addition, the Police Department was not able to adequately account for a $365 weapon purchased with equitable sharing funds.

The results of our work are discussed in greater detail in the Findings and Recommendations section of the report.  The audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The DOJ asset forfeiture program has three primary goals to:  1) punish and deter criminal activity by depriving criminals of property used or acquired through illegal activities; 2) enhance cooperation among foreign, federal, state and local law enforcement agencies through equitable sharing of assets recovered through this program; and, as a by-product, 3) produce revenues to enhance forfeitures and strengthen law enforcement.
We counted all revenue ($2,888,728) and property ($52,875) received by the Police Department based on its requests (DAG-71) submitted to the DOJ by May 29, 2003, although some assets were not disbursed until as late as December 12, 2003.  All other revenue is counted based on actual totals as of May 29, 2003.
The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix IV for a breakdown of our dollar-related findings and for a definition of questioned costs.